OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/SOUTH
SUDAN’S PROGRAMS
IMPLEMENTED BY MERCY
CORPS


AUDIT REPORT NO. 4-668-12-009-P
May 25, 2012




PRETORIA, SOUTH AFRICA
Office of Inspector General


May 25, 2012

MEMORANDUM

TO:                  USAID/South Sudan Mission Director, Kevin Mullally

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Audit of USAID/South Sudan’s Programs Implemented by Mercy Corps
                     (Report Number 4-668-12-009-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety in Appendix II.

The report includes 14 recommendations to strengthen USAID/South Sudan’s programs
implemented by Mercy Corps and future mission programs. With the information you provided
in your response to the draft report and in subsequent communications, we determined that
management decisions have been reached on Recommendations 1, 2, 5, 6, 7, 11, 12, 13, and
14. Recommendations 3, 4, 8, and 9 remain open pending the agreement officer’s
determination of the allowability of $1,576,419 in questioned costs ($1,374,815 ineligible and
$201,604 unsupported) and a target date for the collection of any disallowed amounts.
Recommendation 10 remains open pending the agreement officer’s determination of any
compensation required in connection with Mercy Corps’ retention of certain office compounds
built with USAID funds.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof, X5, 0181
Pretoria, South Africa
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 6

     Civil Society Program Did Not Complete Key Deliverables on Time ...................................... 6

     Government Services Program Did Not Reach Targets or Implement Planned
     Activities ................................................................................................................................ 8

     Mercy Corps Implemented Some Activities Without Prior Approval ..................................... 11

     Mercy Corps Charged Questionable Costs to USAID .......................................................... 14

     Civil Society Resource Centers May Not Be Sustainable .................................................... 17

     Key Mercy Corps Official Was Not Subject to USAID Approval ........................................... 18

     Branding for Both Programs Was Ineffective ....................................................................... 19

     Performance Data Were Not Useful .................................................................................... 21

     Government Services Program Provided Unsanctioned Training ........................................ 23

Evaluation of Management Comments.................................................................................. 24

Appendix I – Scope and Methodology ................................................................................... 27

Appendix II – Management Comments .................................................................................. 30

Appendix III – Consortium Partners ...................................................................................... 36

Appendix IV – Lainya Civil Society Resource Center Computer Activity Log .................... 37


Abbreviations

ADS                              Automated Directives System
AOR                              agreement officer’s representative
CFR                              Code of Federal Regulations
CPA                              Comprehensive Peace Agreement
CSO                              civil society organization
FY                               fiscal year
LINCS                            Localizing Institutional Capacity in Sudan
MC-BRIDGE                        Mercy Corps-Building Responsibility for Delivery of Government Services
MC Scotland                      Mercy Corps Scotland
RIG                              Regional Inspector General
TBA                              traditional birth attendant
SUMMARY OF RESULTS
The Republic of South Sudan became the world’s newest nation on July 9, 2011, after an
overwhelming vote for peaceful secession from Sudan in the January 2011 referendum. In the
south, the exhilaration of independence was matched by daunting challenges. Government
institutions are nascent, infrastructure is outdated or nonexistent, and, with a 27 percent literacy
rate, human capital is insufficient to meet the country’s needs.

Meanwhile, in the north, there was uncertainty over Sudan’s economic future since most of its
oil—the lifeblood of the economy—is in the south. Stabilizing Sudan has been a major U.S.
Government priority in Africa for years, given the destabilizing consequences of the civil war
between the north and south and the Darfur conflict that began in 2003.1

                         Maps of Sudan (left) and South Sudan (right)




       Source: CIA World Factbook.

Since 2005, USAID’s strategy for assisting Sudan has been based on implementing the
Comprehensive Peace Agreement (CPA) that ended decades of civil war. The CPA established
peace between north and south through wealth- and power-sharing agreements that included a
subnational autonomous Government of South Sudan. USAID/Sudan, along with other donors,
worked to transform that entity from a fledgling institution into a functioning government. South
Sudan’s independence signaled the end of the CPA and the beginning of a new USAID strategy
that focuses on maintaining stability in Sudan and South Sudan, supporting the development of
government capacity and economic growth, and ensuring the provision and further development
of basic services.




1
  Angela Stephens, ―Two Sudans: The Separation of Africa’s Largest Country and the Road Ahead,‖
FrontLines, September/October 2011.


                                                                                                  1
USAID/Sudan2 requested this audit because of ongoing concerns about the performance of two
key programs implemented by Mercy Corps. These programs were particularly important
because of their roles in implementing the CPA, their engagement with civil society and with
local and national governments, and their presence in the Three Areas.3 The programs are
described below.

Localizing Institutional Capacity in Sudan (LINCS).              USAID/Sudan entered into a
cooperative agreement with Mercy Corps for the LINCS program in September 2005. This
program was developed for six regions of southern Sudan and directly addressed USAID’s
objective: to increase the institutional capacity of civil society organizations (CSOs) that
supported marginalized groups such as women, youth, orphans, internally displaced people,
returnees, and people with disabilities. Following a modification made in 2008, the program was
revised to include improvement and certification of 114 CSOs, construction of 13 civil society
resource centers (resource centers) to provide infrastructure and assistance for CSOs, and
construction of a network of community radio stations to provide access to government and civic
information.

The original agreement called for spending $8.4 million from September 2005 through
August 2008. In October 2008, after modifying the agreement six times to extend the end date
and change funding totals, USAID/Sudan and Mercy Corps signed Modification 7, which
significantly changed the scope of work. On September 30, 2011, after subsequent
modifications, LINCS obligations and expenditures totaled $39 million and $37.5 million,
respectively. These modifications extended the program’s end date to December 2011.
However, in fiscal year (FY) 2011, because of numerous performance concerns USAID decided
to close out program activities by June 30, 2011.

Building Responsibility for Delivery of Government Services (MC-BRIDGE). USAID/Sudan
entered into a cooperative agreement with Mercy Corps for MC-BRIDGE on January 16, 2009.4
The cooperative agreement had an estimated completion date of November 19, 2011, and an
estimated value of $53.5 million. However, on February 7, 2011, USAID/Sudan notified Mercy
Corps that it would not fund the remainder of the award because of its substantial doubts about
Mercy Corps’ ability to complete activities proposed in the 2011 draft work plan; instead, the
mission would provide up to $10 million to close out the program. As of September 30, 2011,
MC-BRIDGE obligations and expenditures totaled $29.7 million and $28.1 million, respectively.

As stated in the cooperative agreement, the goal of MC-BRIDGE was to support the CPA
through ―delivering visible peace dividends to communities and building the capacity of local

2
   Upon South Sudan’s independence from the north, the USAID office in Juba was designated
USAID/South Sudan, while the USAID mission in Khartoum remained USAID/Sudan. This audit was
requested before then. Because the Government of Sudan would not provide travel visas to the audit
team, fieldwork was limited to South Sudan. Consequently, audit recommendations are restricted to
USAID/South Sudan.
3
  The Three Areas refer to Blue Nile and Southern Kordofan States and the disputed Abyei area. These
are in Sudan along the border with South Sudan. Providing assistance to the Three Areas has been a
long-term priority for the U.S. Government, since any instability there could hurt attempts to establish
peace between Sudan and South Sudan.
4
  Mercy Corps implemented USAID/Sudan’s BRIDGE program in the Three Areas in Sudan and Upper
Nile State in South Sudan, while Winrock International implemented a concurrent BRIDGE program in
other locations in South Sudan. Although they shared the same name, the programs were different in
scope and geographic area. The prefix ―MC‖ in this report distinguishes the audited program as Mercy
Corps’; Winrock’s BRIDGE was not included.

                                                                                                      2
government at all levels to engage constituencies and deliver services.‖ MC-BRIDGE outlined
three objectives toward this goal: (1) enhance the capacity of state and county/local
governments to plan, manage, and provide services to citizens, (2) improve relationships
between local government and its constituents to ensure more democratic, transparent local
governance, and (3) deliver concrete improvements in livelihoods, education, health, water, and
sanitation that reinforce support for peace and contribute to government capacity for
transparent, participatory planning and delivery of services. In FYs 2010 and 2011, Mercy
Corps planned nearly three times as many activities under the third objective as it did for the
first two objectives combined.

Seven consortium partners helped implement MC-BRIDGE under subgrant agreements with
Mercy Corps, each selected for its established presence in the Three Areas and Upper Nile
State and its expertise in key service delivery sectors; Appendix III has details on the partners.
In addition, Mercy Corps contracted with Tetra Tech ARD in the second year to provide
technical support on governance. As of June 7, 2009, Mercy Corps Scotland (MC Scotland)—
through a subcontract with Mercy Corps—assumed responsibility for all MC-BRIDGE projects in
Sudan after the government expelled Mercy Corps in March 2009.5 For continuity, the audit will
refer generally to Mercy Corps and MC Scotland jointly as Mercy Corps, unless otherwise
specified.

The Regional Inspector General in Pretoria (RIG/Pretoria) conducted this audit to determine
whether USAID/Sudan’s LINCS and MC-BRIDGE programs were achieving their main goals.
The audit determined that they were not. The following problems contributed to substandard
performance.

    LINCS did not complete key deliverables like radio stations, resource centers, and annual
    state conferences on time, despite expending approximately $37.5 million over the duration
    of the program (page 6).

    MC-BRIDGE did not reach performance targets or implement planned activities, despite
    expending approximately $28.1 million over the duration of the program. Insecurity and
    other unavoidable circumstances hindered progress, but mismanagement by USAID and
    Mercy Corps also was a factor (page 8).

    Mercy Corps implemented some MC-BRIDGE activities without first obtaining USAID’s
    approval as required; these activities included procurement and use of restricted goods and
    construction of projects costing over $100,000. These instances led to questioned costs of
    $1,237,404. Further, MC-BRIDGE’s environmental documentation and water tests were not
    completed or approved in a timely manner, putting USAID at risk of unintentionally harming
    the environment and beneficiaries (page 11).

    Mercy Corps charged $339,015 in questionable costs to USAID. These costs included the
    salary of a former Mercy Corps country director, which Mercy Corps had disproportionately
    allocated to USAID programs, and indirect costs arising from inconsistent treatment of
    capital expenditures. In addition, Mercy Corps charged the cost of several office


5
  In March 2009, the Government of Sudan expelled Mercy Corps and twelve other nongovernmental
organizations after the International Criminal Court issued an arrest warrant for President Omar al-Bashir
for war crimes and crimes against humanity in Darfur. The expulsion primarily affected Mercy Corps’
operations in what was then northern Sudan, including the Three Areas.

                                                                                                        3
   compounds that it intended to use in other programs, including non-U.S. Government ones,
   after the conclusion of LINCS (page 14).

   LINCS resource centers may not be sustainable. They functioned minimally and lacked
   financial resources, staff, and equipment to operate as intended without more funds from
   donors (page 17).

   A key Mercy Corps official was not subject to USAID approval and made program decisions
   that should have been made by USAID-approved key personnel. These decisions
   contributed to LINCS’ underperformance (page 18).

   Branding for LINCS and MC-BRIDGE was ineffective and failed to credit the U.S.
   Government for its foreign assistance efforts. Mercy Corps had not branded some program
   deliverables, such as physical structures and commodities, with the USAID identity. In other
   cases, the implemented branding and marking plan did not communicate USAID’s
   involvement effectively (page 19).

   MC-BRIDGE performance data were not useful.           Program results frequently were
   unsupported and reported inconsistently, and they therefore were not reliable for making
   decisions (page 21).

In addition to the above issues, the audit found that USAID/South Sudan had not disseminated
information about its decision not to fund traditional birth attendant (TBA) training. As a result,
MC-BRIDGE consortium partners spent USAID funds on unsanctioned activities (page 23).

To strengthen future programs, the audit recommends that USAID/South Sudan:

1. In coordination with USAID/Sudan, develop and implement a plan to improve management
   of projects, programs, and activities that span both Sudan and South Sudan, with particular
   attention to any that involve multiple technical offices (page 11).

2. Develop and implement procedures to ensure that recipients’ annual work plans are
   submitted, reviewed, and approved in a timely manner (page 11).

3. Determine the allowability of $1,125,000 in ineligible questioned costs (spent on
   substandard construction of the Mabaan County vocational training center and initiated
   without getting approval from the agreement officer first as required), and recover from
   Mercy Corps any amounts determined to be unallowable (page 14).

4. Determine the allowability of $112,404 in ineligible questioned costs (spent on restricted
   goods and without getting USAID’s approval first as required), and recover from Mercy
   Corps any amounts determined to be unallowable (page 14).

5. Develop and implement a plan to ensure that all water points constructed or refurbished for
   human consumption under MC-BRIDGE be tested as required by Agency regulations, and
   resolve and document any issues identified (page 14).

6. Develop and implement procedures to require that water points constructed or refurbished in
   South Sudan with USAID funds be tested as required by Agency regulations (page 14).



                                                                                                 4
7. Develop and implement procedures for timely review and approval of recipients’
   submissions to USAID for construction projects, waivers for procurement of restricted goods,
   and environmental assessments and testing (page 14).

8. Determine the allowability of $201,604 in unsupported questioned costs (pertaining to the
   employment costs of a former Mercy Corps country director), and recover from Mercy Corps
   any amounts determined to be unallowable (page 15).

9. Determine the allowability of $137,411 in ineligible questioned costs (arising from
   inconsistent treatment of capital expenditures in its indirect cost rate calculations), and
   recover from Mercy Corps any amounts determined to be unallowable (page 16).

10. Require Mercy Corps to compensate USAID for any office compounds funded by the LINCS
    program that Mercy Corps intends to retain title to, in accordance with 22 Code of Federal
    Regulations (CFR), Section 226.32, and document the results of its determination (page 16).

11. Develop and implement a plan for future agreements to require USAID approval of
    employees who perform duties described in key personnel position descriptions (page 19).

12. Designate in writing a branding and marking subject matter expert, and develop and
    implement a plan to educate implementing partners on devising effective branding strategies
    (page 21).

13. Develop and implement procedures for monitoring the implementation and effectiveness of
    approved branding strategies and marking plans during site visits, including alternative
    monitoring procedures if security or logistical constraints preclude actual visits (page 21).

14. Develop a mission order regarding its policy on traditional birth attendant training and
    disseminate the policy to staff and implementing partners, as appropriate (page 23).

Detailed findings appear in the following section. Our evaluation of management comments is
included on page 24. Appendix I describes the audit’s scope and methodology, and
management comments are included in Appendix II.




                                                                                               5
AUDIT FINDINGS
Civil Society Program Did Not
Complete Key Deliverables on
Time
In October 2008, Mercy Corps and USAID/Sudan signed Modification 7 of the LINCS
agreement, which revised the program description and established new deliverables. These
deliverables, as summarized in Table 1, were intended to strengthen USAID’s efforts in key
geographic areas and to support civic education and engagement. Resource centers were
intended to provide infrastructure and resources in South Sudan and the Three Areas, while the
community advisory boards (advisory boards) were intended to maintain these facilities and
continue implementing their activities.

                       Table 1. LINCS Deliverables and Results (Audited)

             Program Deliverable                                         Results
114 CSOs with improved organizational capacity     114 CSOs had signed partnership agreements by
by the end of FY 2009                              the end of FY 2010.
                                                    When the program ended in June 2011, only 10 of
                                                    14 resource centers were operational, including the
14 functioning resource centers, including the      one in Juba. Although 12 had been completed, 2
Juba civic engagement center,* by the end of        (Abyei and Mankien) were no longer operational
FY 2009; 7 would be in the Three Areas              because of post referendum insecurity. Further, of
                                                    the seven resource centers intended for the Three
                                                    Areas, only four were operational.
                                                    Ten were established, but not until nearly the end
                                                    of LINCS in 2011. Thus, critical steps that advisory
Creation of 14 advisory boards to help sustain      boards took to help ensure sustainability, like
the resource centers, beginning 2009†               developing proposals for generating income, were
                                                    addressed in the closeout plan and not earlier in
                                                    the program.
                                                    Only four conferences took place throughout the
Seven annual conferences to take place
                                                    project. None occurred in Blue Nile, Southern
between FY 2009 and FY 2011
                                                    Kordofan, or Upper Nile States.
Completion of a sixth community radio station by As of the end of the program, this station had not
September 2010                                      been built. (It went on the air in September 2011.)
* While the Juba civic engagement center is included among the 14 resource centers, it is classified
differently because it supports and is available to additional civil society networks in the South
Sudanese capital.
† The audit discusses the sustainability of the boards and the resource centers in more detail on pages
17 and 18.

Mercy Corps failed to complete these deliverables on time. A number of problems contributed
to LINCS’ poor performance. A major factor was Mercy Corps’ expulsion in March 2009. This
absence caused major delays in completing program deliverables, like registering CSOs, and
disrupted the organization’s ability to operate in the Three Areas. Furthermore, since it worked
in areas claimed by northern Sudan and the Sudan People’s Liberation Army (representing
southern Sudan), Mercy Corps had to contend with internal roadblocks even in southern Sudan.

                                                                                                           6
The expulsion also resulted in Turalei being chosen as the location for a replacement resource
center, delaying delivery of that center. In FY 2010, Mercy Corps was able to return to northern
Sudan as MC Scotland and register 16 CSOs in Blue Nile State. Had it not been for the
expulsion, Mercy Corps likely would have met this target on time.

In addition, difficulties in obtaining land contributed to delays in building resource centers in
Juba, Renk, and Kadugli. Obtaining land is not a formalized process in Sudan and often
depends on cultivating personal relationships with government officials and coordinating efforts
across numerous state and national ministries. Mercy Corps cited difficulties with land
allocation in its response to a letter of concern from a former USAID/Sudan official regarding
LINCS’ performance.

The sixth community radio station was not completed on schedule because of delays in
deciding where to locate it. According to an Internews official,6 Lainya, a town south of Juba,
was proposed by Internews but ultimately rejected by USAID in favor of Nasir in Upper Nile
State after lengthy deliberations. The official said Internews was still awaiting approval of a
procurement waiver for a transmitter in order to complete the station.7 USAID had still not
issued the waiver when the audit team finished fieldwork.

Mercy Corps’ management prioritized spending on its residential and office compounds instead
of completing program deliverables. A former LINCS official questioned expenditures for
repairing these compounds while resource centers had not been completed and planned state
conferences were cancelled. Moreover, support for advisory boards was inadequate given their
importance in helping to ensure resource center sustainability. This official, whose views were
corroborated in an independent evaluation, said the management structure, high turnover, and a
lengthy approval process caused delays in providing subgrants and making procurements; the
audit discusses this problem at length in the finding about key personnel approval on page 19.

According to mission officials, USAID had concerns with Mercy Corps’ unsatisfactory
performance as early as 2007. However, the mission was limited in its ability to dictate direct
actions because LINCS was implemented through a cooperative agreement (as opposed to a
contract), and USAID involvement was limited to the ―substantial involvement‖ clause.8 USAID
did exercise its authority by rejecting a proposed chief of party it considered unqualified. As the
program progressed, USAID made numerous requests for budget and programmatic
clarifications that were answered unsatisfactorily by Mercy Corps, ultimately culminating in
USAID’s decision to terminate the program.



6
  Internews is a subgrantee of Mercy Corps working on the community radio program under LINCS.
Activities in this program focus on constructing and operating radio stations throughout South Sudan in
order to increase citizens’ access to information on relevant political and development topics. After
LINCS ended, Internews continued to operate under its own contract with USAID.
7
  USAID contracts or agreements typically contain a geographic code that designates specific countries
from which the awardee is authorized to buy goods and services. A waiver is required if a USAID
recipient needs to buy goods outside the authorized geographic code and has met other administrative
requirements.
8
  According to ADS 303, Office of Management and Budget policy on substantial involvement states that
agencies ―should limit their involvement in assisted activities to the minimum consistent with program
requirements.‖       Substantial involvement consists of the following: approval of the recipient’s
implementation plans; approval of specified key personnel; agency and recipient collaboration or joint
participation; and agency authority to halt a construction activity immediately.

                                                                                                     7
In the wake of decades of civil war and institutional neglect, strengthening civil society is crucial
to developing a lasting peace and a stable, viable South Sudan. As part of this effort, resource
centers support new CSOs by providing training and networking opportunities and access to
information and media technology.          Just as important, resource centers enhance the
organizations’ credibility with local governments. Failing to establish the number of resource
centers originally envisioned denied some CSOs those benefits and jeopardized the
sustainability of any improvements in organizational capacity that may have been achieved.
Delays in establishing CSOs and providing grants for community projects prevented civil society
from being developed fully, and so did reducing the number of state conferences. As a result,
the effectiveness and efficiency of U.S. Government funds committed to the LINCS program
were not maximized.

Although the mission does not plan to launch a new program to replace Mercy Corps this year,
it has budgeted FY 2013 funding to reassess support with civil society activities. In the interim,
the mission plans to continue its work with civic education and advocacy CSOs through its
program with the National Democratic Institute. Because of these actions, the audit does not
make a recommendation.

Government Services Program
Did Not Reach Targets or
Implement Planned Activities
In support of the CPA, USAID/Sudan established MC-BRIDGE to make visible investments in
targeted communities and to improve local governments’ capacity to deliver vital services.
According to Mercy Corps, MC-BRIDGE implemented many activities toward these goals,
including training and providing assistance to 3,527 government staff and entities, bringing
electricity to the town of Kurmuk in Blue Nile State, and supporting 14 health clinics and the only
hospital in Kurmuk through a partnership with the Ministry of Health.

Despite these accomplishments, the audit found that MC-BRIDGE did not achieve its main
goals. RIG/Pretoria analysis shows that MC-BRIDGE achieved targets for only 13 out of
31 performance indicators, even though Mercy Corps reduced nearly all of its targets in the
second quarter of FY 2011 to zero or to equal what had been accomplished already. Table 2
shows the differences between original and revised targets for selected indicators.

    Table 2. Targets Versus Results for Selected MC-BRIDGE Performance Indicators
                                      (Unaudited)

                                                                         Percentage     Percentage
                                                                         of Original    of Revised
                                     Original   Revised      Results
             Indicator                                                     Target         Target
                                     Target      Target
                                                                          Achieved       Achieved

 Number of consensus building
                                       330        58           54             16            93
 processes assisted by USAID
 Number of people in target areas
 with access to improved drinking
                                     767,016    109,637      285,464          37            260
 water supply as a result of U.S.
 Government interventions
 Number of individuals trained in
                                     71,059     46,049       11,970           17            26
 good health and hygiene practice

                                                                                                   8
 Number of parent-teacher
 associations or similar school       116         78           25            22            32
 governance structures trained
 Number of textbooks and other
 teaching and learning materials
                                     248,033   144,357       43,460          18            30
 provided with U.S. Government
 assistance
 Number of individuals who have
 received U.S. Government
                                     16,338     7,288        4,843           30            66
 supported short term agricultural
 sector productivity training

MC-BRIDGE did not implement a large number of planned activities. One key example was the
establishment of ten local planning units, which the FY 2011 work plan identified as the main
governance focus for the remainder of the program. A Mercy Corps official said only three
would be established by the end of the program. Similarly, a different Mercy Corps official said
11 of 18 tangible improvement projects planned in Upper Nile State for the third year would be
cancelled or implemented only partially by the end of MC-BRIDGE. Several MC-BRIDGE staff
members mentioned comparable delays and cancellations in the Three Areas.

Although USAID, Mercy Corps, and consortium partners acknowledged some achievements,
they agreed that MC-BRIDGE did not achieve its goals. Some of the training activities did not
meet the expectations of mission staff for participation, quality, or content. Mercy Corps officials
questioned the quality and sustainability of several completed construction projects, and
consortium partners noted that Mercy Corps was unable to implement the program effectively,
citing staffing and management problems.

Several factors contributed to substandard performance, some of which were outside the control
of the mission or Mercy Corps. For example, when Sudan expelled Mercy Corps and
consortium partner Save the Children Federation in 2009, all activities in Southern Kordofan
State halted, and Mercy Corps was unable to focus on leading the MC-BRIDGE consortium.
MC-BRIDGE sought to build upon the optimistic—albeit unstable—political atmosphere
following the signing of the CPA, and its success depended upon the two major political parties
representing northern and southern Sudan maintaining the will to work together. When this will
began to disintegrate, so did the program’s foundation. Additionally, many activity sites were
inaccessible in the rainy season because of poor infrastructure, and Mercy Corps cancelled
some activities and evacuated some MC-BRIDGE staff because of insecurity. Notably, at the
time of audit fieldwork, Mercy Corps officials were unsure of the status of any activities in the
Three Areas because all staff had been evacuated from those locations.

However, mismanagement by USAID and Mercy Corps significantly contributed to substandard
performance. As designated consortium leader, Mercy Corps was responsible for overseeing
consortium-wide planning, monitoring, and evaluation, and ensuring coordination among
partners at the program level. Despite these responsibilities, Mercy Corps initiated only two
meetings involving all consortium partners, and monitoring and evaluation activities were not
coordinated until midway through the program. Consortium partners said they did not regularly
interact, strategize, or link with each other’s activities, and some partners did not meet with
Mercy Corps until months after starting MC-BRIDGE activities.              Consortium partners
implemented programs based on their own priorities, rather than those of MC-BRIDGE.




                                                                                                  9
Mismanagement also led to stakeholders having very different visions of MC-BRIDGE. USAID
staff, for example, emphasized good governance goals, while consortium partners emphasized
delivery of services, such as water and sanitation. According to USAID, Mercy Corps managers
did not understand the concept of MC-BRIDGE. Mercy Corps staff said USAID was not clear
about what it wanted to achieve, and mission employees had different ideas about the
program’s vision.

Mercy Corps and USAID also had poor staffing structures for MC-BRIDGE. The Mercy Corps
team that developed the proposal included top experts on Sudan and the Three Areas. This
experience was critical because, as noted by a USAID official, success in the north and the
Three Areas was contingent on personal relationships, persistence, and political maneuvering.
Following Mercy Corps’ expulsion, however, some of these people were not allowed to return to
Sudan, and others had taken different jobs. The new team did not have the same experience
needed for success in the Three Areas. At USAID, frequent staff turnover disrupted program
management, and some agreement officer’s representatives (AORs)—who oversee the daily
administration of awards—felt constrained by the substantial involvement limitations of a
cooperative agreement. Additionally, four USAID technical divisions within the Juba office
participated in managing MC-BRIDGE, while the AOR was situated in Khartoum. Coordination
between the Juba and Khartoum offices was difficult, especially given travel restrictions and
competing priorities of mission staff.

Finally, MC-BRIDGE yearly work plans were not submitted or approved in a timely manner,
which prevented effective planning, budgeting, and implementation. Some work plans lacked
detail and had to be redone, while Mercy Corps simply submitted other work plans late, after the
implementing period had started. USAID delayed approving work plans because of required
revisions, staff turnover, and other priorities. These problems came to a head in the third year
when USAID removed several activities from the work plan before approving it. Caught
unaware, consortium partners had to cancel many activities they had planned, promised, or
started. This reversal in plans strained their relationships with local governments and reflected
poorly on USAID, especially in the Three Areas.

The audit found many examples of substandard performance with MC-BRIDGE. A Mercy Corps
official described an $81,600 project to build four poultry houses in the Abyei area as a
complete fiasco because Mercy Corps had no technical expertise in constructing or operating
poultry houses. Although the buildings were constructed, they never housed chickens, in part
because Mercy Corps forgot to include a water source. Similar situations included waste pits
that were overflowing; latrines that were too shallow or poorly constructed to be sustainable; five
out of seven boreholes for potable water consumption drilled in Baliet County (Upper Nile State,
South Sudan) that were unproductive largely because of the contractor’s error and for which the
contractor was still paid $18,000; and the vocational training center in Mabaan County, Upper
Nile State, which had not been finished despite significantly exceeding its timeline and budget
(page 12).

Consequently, MC-BRIDGE spent $28.1 million without achieving its planned results.
According to one USAID official, MC-BRIDGE was a key instrument for upholding U.S.
Government promises made during CPA negotiations. Had MC-BRIDGE achieved its goals, the
prospects for improved governance and quality of life would likely have been enhanced.
Ultimately, MC-BRIDGE was a missed opportunity to help achieve U.S. Government foreign
policy objectives and promote peace and stability in the region.



                                                                                                10
USAID officials said they attempted to address these performance concerns over the course of
MC-BRIDGE. While Mercy Corps took corrective action on some issues, mission officials felt it
did not address certain critical issues such as late submission of the third-year work plan and
lack of documentation for construction projects, both of which caused delays in implementation.
On February 7, 2011, USAID/Sudan announced that it was not funding the remainder of the
Mercy Corps agreement.

Because MC-BRIDGE has ended, the audit is not making any recommendations that address
its particular shortcomings. However, to reduce the likelihood of these problems occurring in
the future, the audit makes the following recommendations.

    Recommendation 1. We recommend that USAID/South Sudan, in coordination with
    USAID/Sudan, develop and implement a plan to improve management of projects,
    programs, and activities that span both Sudan and South Sudan, with particular attention
    to any that involve multiple technical offices.

    Recommendation 2. We recommend that USAID/South Sudan develop and implement
    procedures to ensure that recipients’ annual work plans are submitted, reviewed, and
    approved in a timely manner.

Mercy Corps Implemented Some
Activities Without Prior Approval
As a recipient of USAID funds, Mercy Corps was responsible for complying with—and ensuring
that consortium partners also were complying with—Agency and federal regulations to promote
wise use of taxpayer funds and to prevent USAID from unintentionally harming beneficiaries.
Three such regulations applicable to MC-BRIDGE required USAID approval of (1) construction
projects that cost more than $100,000, (2) restricted goods, including pharmaceuticals and
agricultural commodities, prior to procurement, and (3) completed environmental assessments
before project implementation, including water tests for arsenic and fecal coliform for projects
involving potable water supplies.9

Automated Directives System (ADS)10 303.3.18 notes that failure to comply with these
requirements generally causes USAID to deem associated costs unallowable. Nevertheless,
Mercy Corps did not ensure compliance as required.

First, Mercy Corps did not obtain USAID approval for construction projects that cost more than
$100,000. Mercy Corps did not submit complete information to USAID for approval until
February 25, 2011, the third year of the program, and there is no evidence that either of the two
agreement officers involved with MC-BRIDGE approved any of the projects on the list.



9
   22 CFR 226.48, ―Contract Provisions‖; ―Mandatory Standard Provisions for U.S. Nongovernmental
Recipients: A Mandatory Reference for ADS Chapter 303,‖ USAID Eligibility for Goods and Services,
April 1998, 5–8; and 22 CFR 216 ―Environmental Compliance,‖ supplemented by a USAID cable on
arsenic testing, May 12, 1998.
10
     Portions of ADS were revised in January, February, and March 2012. Because RIG/Pretoria
conducted this audit before then, this report refers to the version of ADS that was in effect at that time.


                                                                                                        11
One example is the vocational training center in Mabaan County, shown in the photographs
below, built by consortium partner Norwegian People’s Aid. Partner staff members said they
sought approval from USAID through Mercy Corps because the center’s estimated cost was
$575,500, and this project was included in the list USAID received in February 2011. However,
a progress report indicated that Mercy Corps gave its partner permission to begin construction
in June 2010, before receiving USAID approval, because the Agency was ―taking a long time‖
with other approvals, and it was important to start before the rainy season. While timeliness is
certainly an important factor in any project, USAID approval of construction projects that cost
more than $100,000 is important to ensure adequate protection of the U.S. Government’s
interests.




The Mabaan County vocational training center, constructed under MC-BRIDGE, is incomplete.
The structure on the left is an unfinished dormitory. On the right, a dormitory does not have
windows or flooring yet. (Photos by Mercy Corps, September 2011)

A Mercy Corps official who visited the center during audit fieldwork said he was ―repulsed‖ by its
condition. Ceilings, walls, and floors were nonexistent or incomplete in some structures. No
water, plumbing, or septic systems were in place. No generators or electrical wiring were
installed. None of the structures had been painted, and no glass was installed in doors or
windows. In addition, the center was in a remote location that is essentially inaccessible during
the rainy season. The MC-BRIDGE official estimated that Mercy Corps had provided
Norwegian People’s Aid a total of $1,125,000 to complete the project by the time RIG/Pretoria
did its fieldwork.

The audit also found that Mercy Corps had not complied with Agency requirements to obtain
USAID’s approval before procuring or using some restricted goods, as shown in Table 3.

 Table 3. Restricted Goods Procured or Used for MC-BRIDGE Activities Without USAID
                                Approval (Unaudited)

                                                                                   Amount ($)
      Consortium Partner                       Restricted Good
                                                                                   (Unaudited)
 International Medical Corps     Medical equipment                                       12,704
 Save the Children Sweden        Midwifery kits and medicines                            14,065
                                 Goats                                                   35,876
 World Vision Inc.
                                 Seeds                                                   12,589


                                                                                               12
                                Seeds                                                     6,020
 Norwegian People’s Aid         Veterinary pharmaceuticals and supplies                  28,398
                                Medical supplies                                          2,752
 Total                                                                                  112,404

Although Mercy Corps staff members applied for some waivers, they did so after the restricted
goods had been used. For example, Mercy Corps applied for the pharmaceuticals waiver in
January 2011, but Norwegian People’s Aid procured and distributed the pharmaceuticals in
2009 and 2010. A waiver for $10,324 in pharmaceuticals (included in Table 3) was approved on
July 5, 2011. Similarly, Mercy Corps applied for seed and goat waivers in September 2010,
after World Vision Inc. had already used the goods; moreover, the waiver to procure and
distribute goats was never approved. While a Mercy Corps official maintained that not all of the
amounts in Table 3 had been spent with USAID funds, since some partners have not been
reimbursed by Mercy Corps pending documentation of prior approval, the audit has questioned
the entire $112,404 for review and determination by the agreement officer.

Finally, Mercy Corps did not comply with USAID’s environmental requirements. In some cases,
Mercy Corps did not submit required environmental documentation until construction had
started. In other cases, Mercy Corps told consortium partners to begin activities before USAID
had approved the submitted documentation. For example, Mercy Corps permitted construction
of a slaughterhouse in Abyei and the vocational training center in Mabaan County to begin
before USAID approved the environmental review forms. Mercy Corps also did not verify that
water tests were completed. Mercy Corps provided documentation of test results for 15
boreholes drilled in Mabaan County, but the tests did not cover arsenic or fecal coliform. Mercy
Corps could not provide documentation to support arsenic or fecal coliform testing at any water
sources constructed or refurbished under MC-BRIDGE, although USAID informed Mercy Corps
on at least two occasions that it was responsible for maintaining these results.

These instances of noncompliance occurred because Mercy Corps misunderstood some
regulations and intentionally overlooked others to further program objectives. Staff turnover and
other priorities at USAID led to delays in reviews and approvals, lack of follow-up for missing
documentation, and general lack of oversight. In one situation, 6 months elapsed before
USAID/Sudan approved a waiver for seeds, leaving Mercy Corps insufficient time to procure
and distribute the seeds before the onset of the rainy season.

Regarding the vocational training center in Mabaan County, a Mercy Corps official attributed the
shortcomings to mismanagement by Norwegian People’s Aid and a lack of oversight by Mercy
Corps. Had the project undergone appropriate review and approval requirements, some of
these problems could have been avoided. Current and former mission officials also admitted
that USAID did not provide adequate oversight, partly because of difficulty obtaining travel
permits and accessing the construction site; however, they noted that Mercy Corps never
mentioned problems with the center and had never asked USAID for assistance. As a result,
Mercy Corps spent approximately $1,125,000 in U.S. taxpayer funds on a poorly constructed,
incomplete activity.

According to ADS 312, policies on restricted goods are intended to prevent USAID from causing
accidental harm and to make sure that USAID programs are implemented in accordance with
relevant laws and policies. Noncompliance with this provision put USAID at risk of violating
regulations and unintentionally harming beneficiaries. Myriad environmental consequences
could arise from MC-BRIDGE activities. Agency guidance states that water supply and
sanitation projects may cause increased incidence of infectious diseases like cholera,

                                                                                              13
noninfectious disease like arsenic poisoning, and water-enabled diseases like malaria.
Construction and agriculture activities can also affect communities and surrounding areas by
damaging ecosystems and contaminating ground water supplies.

To address these problems and reduce the likelihood of their reoccurring in the future, the audit
makes the following recommendations.

   Recommendation 3.        We recommend that USAID/South Sudan determine the
   allowability of $1,125,000 in ineligible questioned costs (spent on substandard
   construction of the Mabaan County vocational training center and initiated without
   getting approval from the agreement officer first as required), and recover from Mercy
   Corps any amounts determined to be unallowable.

   Recommendation 4.         We recommend that USAID/South Sudan determine the
   allowability of $112,404 in ineligible questioned costs (spent on restricted goods and
   without getting USAID’s approval first as required), and recover from Mercy Corps any
   amounts determined to be unallowable.

   Recommendation 5. We recommend that USAID/South Sudan develop and implement
   a plan to ensure that all water points constructed or refurbished for human consumption
   under the Mercy Corps Building Responsibility for Delivery of Government Services
   Program be tested as required by Agency regulations, and resolve and document any
   issues identified.

   Recommendation 6. We recommend that USAID/South Sudan develop and implement
   procedures to require that water points constructed or refurbished in South Sudan with
   USAID funds be tested as required by Agency regulations.

   Recommendation 7. We recommend that USAID/South Sudan develop and implement
   procedures for timely review and approval of recipients’ submissions to USAID for
   construction projects, waivers for procurement of restricted goods, and environmental
   assessments and testing.

Mercy Corps Charged
Questionable Costs to USAID
In addition to the ineligible questioned costs discussed previously, the audit noted that Mercy
Corps billed USAID for expenditures not allowable under U.S. Government rules and
regulations. These expenditures are discussed below.

Country Director Filed Inaccurate Time Sheets. According to Office of Management and
Budget Circular A-122, compensation costs are allowable when they are reasonable, allocable,
and adequately documented.          In practice, this means that salaries and associated
compensation can be charged to U.S. Government programs only in proportion to the actual
time spent working on them. Regarding documentation, Attachment B, Paragraph 8 m(2)(a) of
the circular states that supporting records ―must reflect an after-the-fact determination of the
actual activity of each employee.‖

According to a senior Mercy Corps official, the organization’s former country director in South
Sudan was responsible for overseeing all Mercy Corps programs in the country. This included

                                                                                              14
several funded by the European Union, in addition to the LINCS and MC-BRIDGE programs.
However, a review of ten consecutive monthly time sheets (October 2010 through July 2011)
indicated that each month the country director charged 50 percent of his time to LINCS and
50 percent to MC-BRIDGE; he uniformly recorded 4 hours of work each day to both programs.
This allocation is unreasonable given the scope of the country director’s responsibilities, which
included oversight of European Union-funded programs that were ongoing through the end of
his tenure in July 2011. In addition, the finance director in Juba said she spent approximately
10 to 20 percent of her time on European Union-funded projects.

Furthermore, contrary to Circular A-122, the former country director said he did not detail the
actual hours worked but rather recorded what he thought was a fair reflection of his time.
Although he said he was unfamiliar with the specific requirements of the circular at the time, the
finance director said she raised the issue of time sheet accuracy with him, but he ignored her.

As a result, the LINCS and MC-BRIDGE programs were overcharged, reducing the funds
available to achieve program objectives. Since Circular A-122 requires an after-the-fact
determination of each employee’s actual activity, and the former country director said that he did
not complete his time sheets on that basis, the audit questions the entire salary, fringe benefits,
and associated indirect costs of his employment with Mercy Corps. These costs amount to
$201,604 ($105,072 LINCS and $96,532 MC-BRIDGE).

     Recommendation 8.          We recommend that USAID/South Sudan determine the
     allowability of $201,604 in unsupported questioned costs (pertaining to the employment
     costs of a former Mercy Corps country director), and recover from Mercy Corps any
     amounts determined to be unallowable.

Capital Expenditures in LINCS’ Indirect Cost Calculations Were Treated Inconsistently.
Mercy Corps’ negotiated indirect cost rate agreements11 specify that capital expenditures over
$5,000 must be excluded from the indirect cost base of application. The agreements also state
that acceptance of the agreed-upon rate is conditional on similar types of costs being treated
consistently. This is in accordance with basic cost principles under Circular A-122, which
specify that costs must be afforded consistent treatment and be determined in accordance with
generally accepted accounting principles.

Indirect cost calculations for the LINCS program excluded capital expenditures for items such as
office compounds, vehicles, and resource center generators. However, expenditures for
construction of the centers themselves were not excluded, despite the fact that construction of
real estate and leasehold improvements typically are considered capital expenditures under
generally accepted accounting principles. A Mercy Corps finance official explained that capital
equipment is excluded from the indirect cost rate base because it is a capital asset. Moreover,
Mercy Corps considers programmatic construction to be a service contract expense, which is
not excluded because Mercy Corps does not retain ownership of what it constructs (in the case
of LINCS, the resource centers).

Despite these assertions, Mercy Corps policy treats similar items inconsistently. For example,
resource center generators are also programmatic in nature and are not owned by Mercy Corps;
however, unlike the resource centers, these items are excluded from the indirect cost base.


11
  The negotiated indirect cost rate agreement includes the rate used to compute indirect costs incurred
by Mercy Corps that are not charged as direct costs under the LINCS cooperative agreement.

                                                                                                    15
Since the generators are programmatic yet excluded, the resource centers should be treated
consistently. There is no apparent rationale for treating these similar items differently.

Since this inconsistent treatment violates one of the conditions specified in Mercy Corps’
negotiated indirect cost rate agreements, indirect costs are overstated. Consequently, the audit
questions indirect costs of $137,411, which represent the effect of not excluding resource center
construction costs from the indirect cost base of application.

   Recommendation 9.         We recommend that USAID/South Sudan determine the
   allowability of $137,411 in ineligible questioned costs (arising from inconsistent
   treatment of capital expenditures in its indirect cost rate calculations), and recover from
   Mercy Corps any amounts determined to be unallowable.

Some LINCS Assets Will Provide Future Benefits to Non-U.S. Government Programs.
Circular A-122, Attachment A, paragraph A.2a, states that an allowable cost under an award
must be allocable under the principles described in the circular. It then states that a cost is
allocable to a particular activity in accordance with the relative benefits received. Section 2 of
this paragraph describes an allocable cost as one that benefits both the award and other work,
and can be distributed in reasonable proportion to those benefits. These criteria are to ensure
that the U.S. Government bears no more than its fair share of the costs associated with its
awards.

Despite these requirements, Mercy Corps has charged the cost of several office compounds to
the LINCS program that it intends to use for other programs, including non-U.S. Government
ones, after the conclusion of LINCS. According to a Mercy Corps document obtained during
audit fieldwork, Mercy Corps intends to keep at least five compounds with an aggregate cost of
$189,518 for future use by itself or MC Scotland. Without a reasonable allocation of these costs
between LINCS and the other programs, the U.S. Government is bearing more than its
equitable share of the cost.

In large part, Mercy Corps’ plans regarding these compounds were indicative of a cavalier
attitude toward cost allocation principles. According to a former LINCS official, Mercy Corps
country managers did not understand the LINCS cooperative agreement well enough to ensure
control of program costs. This official quoted one manager as saying, ―Assets bought with
LINCS money are Mercy Corps assets because there is no such thing as LINCS assets.‖

According to 22 CFR 226.32(c)(1), a recipient may retain title to real property by compensating
the U.S. Government for that percentage of the current fair market value of the property
attributable to the U.S. Government’s participation in the project. Consequently, this audit
makes the following recommendation.

   Recommendation 10. We recommend that USAID/South Sudan require Mercy Corps
   to compensate USAID for any office compounds funded by the Localizing Institutional
   Capacity in Sudan Program that Mercy Corps intends to retain title to, in accordance
   with 22 Code of Federal Regulations, Section 226.32, and document the results of its
   determination.




                                                                                                 16
Civil Society Resource
Centers May Not Be Sustainable

According to the LINCS closeout plan, a primary objective of the final phase was to transfer
responsibility for managing resource centers to advisory boards. They were responsible for
providing communities with training, information, and Internet services, as well as for
maintaining the resource centers’ buildings and equipment. The crucial importance of advisory
boards in helping sustain the centers was recognized as early as September 2008 when the
cooperative agreement was modified to call for the creation of the boards.

Despite this importance, auditors observed that advisory boards lacked the capacity and
resources to operate their respective resource centers. During interviews, advisory board
officials noted their inability to pay monthly phone, Internet, and fuel expenses, in addition to
essential staff. At one resource center visited, the compound generator had an oil leak, as
shown in the photograph below, and operated sporadically. At another center, the advisory
board had been unable to pay satellite phone and Internet bills since Mercy Corps left. As a
result, computer and Internet services were unavailable.




               The generator at the Lainya resource center has an oil leak
               (circled) and works sporadically.   (Photo by RIG/Pretoria,
               August 2011)

Throughout visits, advisory board members pointed out residential and work structures in need
of repair, as shown in the photographs below. These officials emphasized that they could not
operate resource centers without more funding and suggested that USAID continue to support
them.


                                                                                              17
These photos show LINCS program sites in Central Equatoria State, South Sudan. On the left is
an unused computer room without Internet access in Yei. On the right is a dilapidated lodging
tent on the compound in Lainya. (Photos by RIG/Pretoria, September 2011)

In order to cut costs, some advisory boards have opened their computer rooms to the public as
fee-based Internet cafes. Tours of these rooms and reviews of associated computer logs
(Appendix IV) showed that the computer activity observed during our visits was rarely consistent
with the original goal of fostering civil society. While struggling to maintain the financial viability
of resource centers, the advisory boards were not able to focus on promoting civil society
organizations and training.

The LINCS closeout plan also stated that Internews would continue to establish community
radio advisory boards when the program concluded. Despite this intent, an Internews radio
station manager said he had never heard of these activities.

The advisory boards’ lack of capacity was partially a result of their delayed formation. Although
the cooperative agreement was modified in 2008 to require advisory boards, the CSOs first
needed to be formed and trained before the boards could be established. The boards’
formation was delayed again in FY 2010 because of the amount of time it took to establish local
task forces to elect board members and to draft governing documents. Furthermore, several
advisory boards were unable to produce detailed budgets showing the source and use of funds.
Without such rudimentary managerial skills, advisory board-operated resource centers cannot
operate resource centers sustainably, even with assistance from an outside donor.

Consequently, advisory board-operated resource centers risk becoming obsolete, empty
structures, unable to fulfill their original intent of providing access to training and information to
promote civic engagement. Current and former LINCS officials, as well as mission officials,
confirmed that the inability to establish advisory boards early hurt the centers’ chances of
survival. Currently, the mission does not plan to work with advisory boards, but it has taken
steps to hire a consultant through its National Democratic Institute program to assist with
resource center sustainability. Consequently, the audit does not make a recommendation on
this issue.

Key Mercy Corps Official Was
Not Subject to USAID Approval

The LINCS chief of party is included in the category of ―key personnel‖ in the cooperative
agreement. The position description from Modification 7 in 2008 states that the chief of party is

                                                                                                    18
―responsible for the . . . fiscal management of the LINCS program‖ and ―has responsibility for
maintaining working relationships with the donor‖ and other stakeholders. This role was
reinforced by an organizational chart in the cooperative agreement, showing that the finance
director would report to the chief of party. Given the importance of the chief of party’s
responsibilities, whoever filled this position was subject to USAID approval.

In practice, however, the Mercy Corps country director controlled LINCS’ finances. For
example, a former LINCS official said the country director firmly insisted on ―100 percent budget
line flexibility‖ for the LINCS program, allowing the use of LINCS funds for Mercy Corps
operational costs rather than LINCS program deliverables. This insistence led to a number of
disagreements regarding resource allocation and ultimately the termination of the former official.
An independent midterm evaluation confirmed these observations, stating that some LINCS
personnel felt the organizational structure made it difficult to obtain necessary assets and
reduced the funding available for project implementation.

According to a former chief of party and the midterm evaluation, Mercy Corps’ supporting
departments, such as finance, human resources, and operations, reported to the country
director, while only the technical program reported to the LINCS chief of party. In addition, the
chief of party reported to the country director. A senior Mercy Corps official said this
arrangement was typical for large international nongovernmental organizations. However,
despite the importance of the country director in Mercy Corps’ overall management structure,
this position was not included in the category of key personnel subject to USAID approval.

According to a former LINCS chief of party, this management structure ultimately prevented her
from exercising effective budgetary control, and as a result, Mercy Corps prioritized spending on
office compounds instead of building resource centers, which were already behind schedule.
These priorities further impeded progress toward fulfilling LINCS’ deliverables. The subsequent
internal disputes between the chief of party and the country director created communication
problems between Mercy Corps and USAID because the country director prohibited the former
chief of party from communicating with the Agency. This restriction also was contrary to the
chief of party’s position description, which made that person responsible for maintaining working
relationships with USAID and other stakeholders.

USAID requires approval of key personnel so that appropriate people are hired for critical
positions. In this case, an official who exercised decision-making authority was not subject to
any approval from the Agency. Accordingly, to make sure USAID maintains oversight of future
programs, the audit makes the following recommendation.

   Recommendation 11.         We recommend that USAID/South Sudan develop and
   implement a plan for future agreements to require USAID approval of employees who
   perform duties described in key personnel position descriptions.

Branding for Both Programs
Was Ineffective
Section 641 of USAID’s framework legislation, the Foreign Assistance Act of 1961, codified as
amended in 22 U.S.C. 2401, specifies that all programs under the act be identified appropriately
as ―American Aid.‖ Additionally, ADS 320.3.1 states that implementing partners must
communicate through their marking plan that the assistance is from the American people.



                                                                                               19
Both the LINCS and MC-BRIDGE cooperative agreements contained provisions for branding
and marking USAID-funded activities, including submitting a branding strategy and marking plan
for approval. Table 4 outlines some of these requirements.

  Table 4. Selected Branding and Marking Requirements Under LINCS and MC-BRIDGE

              Activity                           LINCS*                       MC-BRIDGE
 Construction, infrastructure       Locally produced wooden sign     Temporary billboard located
 improvement, or establishment of   outside of each center (exceptionin front of the site during
 resource centers                   requested for the Three Areas)   construction
                                                                     A banner located at the front
                                    A temporary banner displayed
 Trainings and events                                                of the meeting site for the
                                    during each conference
                                                                     duration of the meeting
 Commodities (school supplies,      Permanent USAID stickers affixed Sticker or similar marking
 desks, computers, etc.)            to the monitor of each computer  device affixed to the item
                                    USAID logo along with standard   Donor acknowledgment
 Training and other print materials acknowledgment and disclaimer    printed inside the back cover
                                    language printed on material     of major training materials
* These were elements of the branding and marking plan submitted by LINCS but never approved by
USAID.

However, Mercy Corps did not always comply with the requirements and did not communicate
USAID’s sponsorship of LINCS and MC-BRIDGE activities effectively.

Under LINCS, USAID-funded equipment such as generators and furniture were unmarked at
four resource centers the audit team visited, and one center’s street sign lacked USAID
branding. Under MC-BRIDGE, materials at a training session auditors observed in Malakal
(Upper Nile State) were not branded with the USAID logo. Two people affiliated with local
planning units in Melut and Mabaan said computers, office supplies, and furniture were not
marked with USAID stickers. Further, items that were branded showed the MC-BRIDGE logo
instead of USAID’s, despite the approved branding strategy and marking plan stating that a
separate project logo should not be developed and ―no other logos or identities will be used on
project materials, other than that of USAID, Mercy Corps and its partners.‖

More significantly, eight of nine LINCS beneficiaries interviewed did not know of USAID’s
involvement with the program. Five of nine top government officials from Upper Nile State—one
of whom was a presenter at ongoing MC-BRIDGE training—were either unaware of USAID’s
involvement with MC-BRIDGE or unaware of the program at all. Most participants interviewed
did not know that USAID had paid for the training, materials, and accommodations, which cost
approximately $54,000. Although Mercy Corps displayed a banner in the training facility, it was
difficult to see and was written only in English for a largely Arabic-speaking audience.
Implementers said they generally tried to follow applicable requirements, but the interviews with
beneficiaries indicated that branding and marking efforts were not effective.

These weaknesses occurred in part because the mission never formally approved the LINCS
branding strategy and marking plan. Although Mercy Corps submitted a plan, the AOR said she
needed assistance on some issues, such as permissible branding exceptions, prior to
recommending approval. However, there was no designated person at the mission to respond
to her inquiries, and her requests to the mission’s program office were never answered. As a
result, the mission never approved the submitted plan. According to the AOR, the lack of an
approved plan also made her site visits less effective because she did not know what branding
was required or which exceptions were allowed.

                                                                                               20
Although the MC-BRIDGE branding and marking plan was incorporated into the cooperative
agreement, Mercy Corps staff members were complacent about communicating USAID’s
sponsorship to beneficiaries. For example, at the MC-BRIDGE training, staff members agreed
with the auditor’s observation that most participants were unaware of USAID’s involvement.
Mercy Corps staff had placed the training banner at the front of the room as instructed, but
made no additional efforts to communicate this message when it became clear that the basic
branding and marking requirements were not sufficient. While some consortium partners felt
Mercy Corps periodically stressed the importance of branding and marking in MC-BRIDGE,
insecurity and difficult logistics prevented mission staff from regularly monitoring branding
compliance and effectiveness and providing feedback to Mercy Corps.

USAID is considered a good news story of U.S. foreign policy, and making sure that the
American people are recognized for their generosity in funding foreign assistance has been a
long-standing U.S. Government objective.         Without clear, effective branding, the U.S.
Government and the American people are denied the public diplomacy benefits of their foreign
assistance. Accordingly, the audit makes the following recommendations.

   Recommendation 12. We recommend that USAID/South Sudan (1) designate in
   writing a branding and marking subject matter expert, and (2) develop and implement a
   plan to educate implementing partners on devising effective branding strategies.

   Recommendation 13.           We recommend that USAID/South Sudan develop and
   implement procedures for monitoring the implementation and effectiveness of approved
   branding strategies and marking plans during site visits, including alternative monitoring
   procedures if security or logistical constraints preclude actual visits.

Performance Data
Were Not Useful

According to ADS 203.3.4, a performance indicator is a particular characteristic used to observe
progress and to compare actual results with expected ones. Performance indicators should be
unambiguous, closely track the results they were intended to measure, and be defined precisely
in the performance management plan. ADS 203.3.5.1 adds that the data should meet the five
data quality standards of validity, integrity, precision, reliability, and timeliness to be useful in
managing for results and credible for reporting.

Contrary to these requirements, MC-BRIDGE reported on indicators inconsistently and in some
cases reported activities under indicators with which they were only loosely associated because
the activity was not captured anywhere else. For example, the indicator to capture local
government capacity building included vocational training in textiles, bricklaying, and carpentry.
Mercy Corps staff members said they accepted this situation instead of revising indicators again
or not reporting consortium partner activities.

Further, the MC-BRIDGE monitoring and evaluation team found that FY 2009 reported results
were largely unsupported, and documentation for FY 2010 and 2011 results was lacking and
inconsistent. Table 5 shows the results of auditors’ tests to verify performance data.




                                                                                                  21
                     Table 5. FY 2010 Targets and Results for Selected
                     MC-BRIDGE Indicators in Upper Nile State (Audited)

                                                                            Result         Result
                                                            Reported
                  Indicator                     Target                    Verified by    Verified by
                                                             Result
                                                                         Mercy Corps     Audit Tests
 Number of people who received training to
 strengthen local                                315          263           294              245
 government/decentralization
 Number of staff trained (clinical officers,
 midwives, and community health workers)
                                                  49          129           107              84*
 each year on family planning and
 reproductive health
 Number of people in target areas with
 access to improved drinking water supply                                                 Unable to
                                               48,310       25,000         35,080
 as a result of U.S. Government                                                           be verified
 interventions
 Number of students enrolled in U.S.
                                                                                          Unable to
 Government-supported primary schools or         800          694           130
                                                                                          be verified
 equivalent settings
 Number of individuals who have received
 U.S. Government-supported, short-term          2,500        1,504         1,104            1,127
 agricultural sector productivity training
* This number includes 53 participants in general refresher training for traditional birth attendants.
However, as discussed in the following section, the mission does not sanction training of this kind in
South Sudan.

Data quality assessments performed in FY 2010 also revealed these problems.12 Some
performance indicator data did not meet USAID’s quality standards, while assessments could
not be completed for other indicators because subgrantees had not submitted required data.
Consequently, Mercy Corps asked its consortium partners in December 2010 to improve data
collection and reporting; however, their activities were phased out before any improvements
could be made.

These problems stemmed from a weak monitoring and evaluation system at the beginning of
MC-BRIDGE. According to a former official, at the beginning of the program consortium
partners told Mercy Corps which custom indicators they would be using for their independent
activities. Consequently, MC-BRIDGE reported on 131 uncoordinated indicators in the first
year, despite the cooperative agreement’s requirement to hold ―a consultative workshop‖ among
consortium partners at the start of the program to ―finalize common indicators and develop tools
and processes for data collection and monitoring activities.‖

Although Mercy Corps reduced the number of indicators in the program’s second year, the new
ones were inadequate given the breadth and complexity of MC-BRIDGE. Monitoring and
evaluation staff said the new performance indicators were not well defined and that Mercy
Corps, consortium partners, and USAID did not have the same understanding of what was
being measured. These shortcomings occurred in part because the MC-BRIDGE performance
12
  As indicated in ADS 203.3.5.2, the purpose of a data quality assessment is to ensure that the USAID
mission is aware of the strengths and weaknesses of performance data, and is aware of the extent to
which the data integrity can be trusted to influence management decisions. Data quality assessments are
required every 3 years for data reported to Washington for Government Performance and Results Act
reporting or for reporting externally on Agency performance.

                                                                                                    22
management plan was never finalized. The initial plan was not approved because it lacked
baseline data and performance targets; subsequent plans were not approved because of
ambiguity regarding performance indicators and what was to be measured. Staff turnover and
general lack of oversight by USAID and Mercy Corps also affected development and approval of
the performance management plan.

As a result, MC-BRIDGE performance data were not useful for making decisions or credible for
reporting. However, since MC-BRIDGE has ended and the mission has established a corrective
action plan to alleviate understaffing and strengthen staff training, which should improve future
program oversight, the audit does not make a recommendation in this area.

Government Services Program
Provided Unsanctioned Training
RIG/Pretoria issued the ―Audit of USAID/Sudan’s Maternal and Child Health Activities‖ (Report
No. 4-650-11-010-P) on July 28, 2011. The audit found that USAID/Sudan’s maternal and child
health strategy inadvertently relied on TBAs. In its response to the audit report, USAID noted
that neither the Government of South Sudan’s Ministry of Health nor the international medical
community, including the World Health Organization, considered TBAs—trained or untrained—
qualified to provide safe deliveries. Therefore, according to mission officials, TBA training
should not have been conducted with USAID funds.

Despite this assertion, the current audit found that MC-BRIDGE consortium partners were
training TBAs with USAID funds. Several program reports even emphasized MC-BRIDGE’s
focus on TBA training and highlighted it as a primary achievement. According to these reports,
at least 93 TBAs were trained under MC-BRIDGE with USAID funds.

According to Mercy Corps staff members, USAID did not inform them of the mission’s policy
regarding TBA training even though Mercy Corps discussed such training in work plans and
progress reports. Key USAID health officials also were unaware of the mission’s policy or its
response to the prior audit report. This occurred in part because some mission officials involved
in the prior audit had left the mission, and others were on extended leave. Further, USAID had
not clearly communicated the TBA training policy to mission staff and implementing partners.

The international medical community does not sanction TBA training as an effective means of
reducing maternal mortality; additionally the training is inconsistent with the Government of
South Sudan’s policy. Therefore, such training is not an effective use of U.S. taxpayer funds for
achieving the mission’s maternal and child health goals. Further, TBA training may promote
deliveries assisted by unskilled staff, which contravenes the mission’s strategy and is potentially
harmful to intended beneficiaries. Accordingly, the audit makes the following recommendation.

   Recommendation 14. We recommend that USAID/South Sudan develop a mission
   order regarding its policy on traditional birth attendant training and disseminate the policy
   to staff and implementing partners, as appropriate.




                                                                                                   23
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/South Sudan agreed with all 14 recommendations.
Management decisions have been reached on nine recommendations. In accordance with ADS
595, Recommendations 3, 4, 8, and 9 remain open pending the agreement officer’s
determination of the allowability of questioned costs and a target date for the collection of any
disallowed amounts. Recommendation 10 remains open pending the agreement officer’s
determination of any compensation required in connection with Mercy Corps’ retention of certain
office compounds built with USAID funds. A detailed evaluation of management comments
follows.

Recommendation 1. USAID/South Sudan agreed to develop and implement a plan, in
coordination with USAID/Sudan, to improve management of projects, programs, and activities
that span both Sudan and South Sudan, with particular attention to any that involve multiple
technical offices. USAID/South Sudan noted continuing efforts to reduce its reliance on
USAID/Sudan’s personnel and systems. For example, USAID/South Sudan added a legal
advisor and a supervisory contracting/agreement officer to its staff to provide services once
provided from the USAID/Sudan office. The missions are dividing programmatic activities into
two separate country programs; by September 30, 2012, USAID/South Sudan and
USAID/Sudan plan to award two new contracts to take the place of the one remaining activity
with aspects of joint management. Further, mission management does not envision undertaking
joint north-south programs in the future. As a result, a management decision has been reached
on Recommendation 1.

Recommendation 2. USAID/South Sudan agreed to develop and implement procedures to
help ensure the timely submission, review, and approval of recipients’ annual work plans.
USAID/South Sudan officials said they revised the staffing plan to increase the number of staff
to manage programs and provide monitoring, training, and oversight of AORs. They said this
change would improve procedures for reviewing and approving work plans, and would improve
oversight of partners. The mission plans to submit all personnel request forms for the revised
staffing plan by January 31, 2013. In addition, USAID/South Sudan plans to require AORs to
document affirmation of current work plans during the mission’s annual portfolio reviews,
starting with the next review to be held before December 31, 2012. As a result, a management
decision has been reached on Recommendation 2.

Recommendation 3. USAID/South Sudan agreed to determine the allowability of $1,125,000
in ineligible questioned costs (spent on substandard construction of the Mabaan County
vocational training center and initiated without getting approval from the agreement officer first
as required), and recover from Mercy Corps any amounts determined to be unallowable. A
management decision for Recommendation 3 is pending the agreement officer’s determination
of the allowability of questioned costs and a target date for the collection of any disallowed
amount.

Recommendation 4. USAID/South Sudan agreed to determine the allowability of $112,404 in
ineligible questioned costs (spent on restricted goods and without getting USAID’s approval
first), and recover from Mercy Corps any amounts determined to be unallowable. A


                                                                                               24
management decision for Recommendation 4 is pending the agreement officer’s determination
of the allowability of questioned costs and a target date for the collection of any disallowed
amount.

Recommendation 5. USAID/South Sudan agreed to develop and implement a plan to ensure
that all water points constructed or refurbished for human consumption under MC-BRIDGE are
tested as required by Agency regulations and resolve and document any issues identified.
USAID/South Sudan said it will ask Mercy Corps to collect samples from the 15 boreholes in
Mabaan County, and in later discussion revised this response to cover all MC-BRIDGE water
points in Upper Nile State. Mission officials plan to ask Mercy Corps to submit the samples for a
full analysis and cap water sources that do not meet testing requirements and cannot be made
potable. No water sources in the Three Areas are included since they are no longer under
USAID/South Sudan’s jurisdiction. The mission requested to revise its target completion date
for these actions to April 30, 2013, given the recent violence in the country’s border regions with
Sudan. As a result, a management decision has been reached on Recommendation 5.

Recommendation 6. USAID/South Sudan agreed to develop and implement procedures to
require that water points constructed or refurbished in South Sudan with USAID funds be tested
as required by Agency regulations. USAID/South Sudan said it would disseminate the Agency’s
procedures for water testing to AORs, implementing partners, the Government of South Sudan’s
Ministry of Water Resources and Irrigation, and other technical experts within USAID by
January 31, 2013. Mission management added that these regulations would be emphasized to
implementing partners in South Sudan and monitored through regular site visits. As a result, a
management decision has been reached on Recommendation 6.

Recommendation 7. USAID/South Sudan agreed to develop and implement requirements for
timely review and approval of recipients’ submissions for USAID approval. In addition to adding
the key positions of legal advisor and supervisory contract/agreement officer, which should
improve the review and approval process, USAID/South Sudan noted that it has already
disseminated a preobligation checklist for tracking these requirements. This checklist includes
line items for environmental documentation and waivers, and must be cleared by the technical,
program, and contracting offices prior to more funds being given. Further, a Foreign Service
National will become the mission’s full-time environmental officer and will assume responsibility
for daily oversight of environmental compliance by April 30, 2013, as noted by the mission in a
follow-up discussion. The mission also said that it has already disseminated an ―Environmental
Compliance Tracking Matrix,‖ which will help the mission environmental officer track
environmental compliance needs, requirements, and concerns, and respond to them in a timely
manner. As a result, a management decision has been reached on Recommendation 7.

Recommendation 8. USAID/South Sudan agreed to determine the allowability of $201,604 in
unsupported questioned costs (pertaining to the employment costs of a former Mercy Corps
country director), and recover from Mercy Corps any amounts determined to be unallowable. A
management decision for Recommendation 8 is pending the agreement officer’s determination
of the allowability of questioned costs and a target date for the collection of any disallowed
amount.

Recommendation 9. USAID/South Sudan agreed to determine the allowability of $137,411 in
ineligible questioned costs (arising from inconsistent treatment of capital expenditures in its
indirect cost rate calculations), and recover from Mercy Corps any amounts determined to be
unallowable. A management decision for Recommendation 9 is pending the agreement officer’s


                                                                                                25
determination of the allowability of questioned costs and a target date for the collection of any
disallowed amount.

Recommendation 10. USAID/South Sudan agreed to have Mercy Corps compensate USAID
for any office compounds funded by the LINCS program that the organization intends to retain
title to, in accordance with 22 CFR 226.32, and document the results of its determination. A
management decision for Recommendation 10 is pending the agreement officer’s determination
of any compensation required and a target date for collection of the required amount.

Recommendation 11. USAID/South Sudan agreed to develop and implement a plan for future
agreements to require USAID approval of employees who perform duties described in key
personnel position descriptions. For all future awards, USAID/South Sudan will make sure that
the agreement officer, AOR, and grantee discuss roles and responsibilities of key personnel, as
well as possible corrective actions for deviations from approved personnel designations or
functions (including potential disallowance of costs) during postaward conferences. In a follow-
up discussion, USAID/South Sudan agreed to communicate this requirement by July 31, 2012.
As a result, a management decision has been reached on Recommendation 11.

Recommendation 12. USAID/South Sudan agreed to designate a branding and marking
subject matter expert to implement a plan to educate implementing partners on devising
effective branding strategies. USAID/South Sudan plans to hire two development outreach and
communications specialists to undertake this function, one personal services contractor, and
one Foreign Service National. The mission plans to submit the request for the new personal
services contractor position to Washington for approval by June 1, 2012, and complete the
hiring process for the new Foreign Service National position by January 31, 2013. In the
interim, USAID/South Sudan officials said they would ask USAID/Washington and
USAID/Kenya for help in training staff and partners on branding and marking requirements by
January 31, 2013. A management decision has been reached on Recommendation 12.

Recommendation 13. USAID/South Sudan agreed to implement procedures to monitor the
implementation and effectiveness of approved branding strategies and marking plans during site
visits, including alternative monitoring procedures if security and/or logistical constraints
preclude actual visits. USAID/South Sudan plans to complete these actions by January 31,
2013. As a result, a management decision has been reached on Recommendation 13.

Recommendation 14. USAID/South Sudan agreed to develop a mission order regarding its
policy on traditional birth attendant training and to disseminate the policy to staff and
implementing partners, as appropriate. USAID/South Sudan plans to develop the mission order
by June 1, 2012, and disseminate it electronically to implementing partners following mission
approval. A management decision has been reached on Recommendation 14.




                                                                                              26
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope

RIG/Pretoria conducted this performance audit in accordance with generally accepted
government auditing standards, except for a limitation on the scope of the audit. This limitation
was that auditors could not visit any activity sites in Sudan (including the Three Areas) and
some activity sites in South Sudan or review documentation kept there because of failed
attempts to obtain travel permits from the Government of Sudan and security restrictions in
different regions of the country, particularly in the Upper Nile State. This limitation was
significant for MC-BRIDGE especially, as auditors were able to visit only one activity site in
Malakal and could not review the majority of MC-BRIDGE documentation, which was in
Khartoum. To reduce this limitation, Mercy Corps sent two large suitcases of MC-BRIDGE
documentation to Juba. Government auditing standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions in accordance with our audit objectives. Despite this limitation, we believe the
evidence obtained provides that reasonable basis.

Our conclusions are based on the items we tested and on other sources of information available
to us during the audit—namely, interviews with current and former staff from USAID/Sudan and
USAID/South Sudan, Mercy Corps and its subpartners, and Upper Nile State government
officials; field visits to observe Mercy Corps-supported activities and hold informal discussions
with beneficiaries; and program documentation such as the mission’s annual reports, site visit
reports, and program correspondence.

The objectives of the audit were to determine whether USAID/Sudan’s LINCS and MC-BRIDGE
programs were achieving their main goals. We conducted audit fieldwork from August 22 to
September 9, 2011, at USAID/South Sudan and Mercy Corps’ main office in Juba; select Mercy
Corps field offices and activity sites in Malakal for MC-BRIDGE, and in Malualkon, Aweil, Yei,
and Lainya for LINCS; and selected subpartner and Upper Nile State Ministry offices. The audit
covered the period from the programs’ inceptions—September 2005 for LINCS and
January 2009 for MC-BRIDGE—to the end of the audit fieldwork on September 9, 2011.

USAID/South Sudan reported total obligations and expenditures for LINCS and MC-BRIDGE of
$68.7 million and $65.6 million, respectively, from the programs’ commencement through
September 30, 2011.

In planning and performing the audit, we assessed USAID/Sudan and USAID/South Sudan’s
management controls related to management review, proper execution of transactions and
events, and review of performance measures and indicators. Specifically, we examined and
evaluated documentation prepared by the missions, Mercy Corps, and subpartners, including
the following:

   Cooperative agreements and subawards

   Quarterly and annual progress reports from Mercy Corps

   Target and actual performance results

                                                                                              27
                                                                                       Appendix I


   Mercy Corps’ support for deliverables and reported results

   Annual work plans

   Site visit reports from mission staff and Mercy Corps

   Data quality assessments

   Indirect cost-rate calculations and time sheets

   Planning documentation, including performance management plans and branding and
   marking plans, for both LINCS and MC-BRIDGE

   USAID/Sudan’s Federal Managers’ Financial Integrity Act certifications from FY 2010 and
   2011

   USAID/South Sudan’s Federal Managers’ Financial Integrity Act certification from FY 2011

We interviewed key current and former personnel from USAID/Sudan, USAID/South Sudan,
Mercy Corps, and subpartners. We also interviewed Upper Nile State ministers, directors
general, and their staff to discuss MC-BRIDGE, and CSOs to discuss LINCS. We also reviewed
the LINCS mid-term evaluation, dated October 22, 2010, prepared by Management Sciences
International.

Methodology
To become familiar with goals, objectives, key deliverables, and achievements of LINCS and
MC-BRIDGE, we reviewed the cooperative agreements, progress reports, and supplementary
documents of Mercy Corps, which discussed key deliverables and reported results. To
determine whether the LINCS and MC-BRIDGE programs were achieving their main goals, the
audit team reviewed key deliverables in progress reports, as well as performance targets and
reported results. We corroborated this evidence with interviews and site visits. Access to
activity sites was the primary factor in site selection—considering insecurity, visa restrictions,
impassable road conditions, and time and resource constraints. Because of the judgmental
nature of the selection process, the results of these tests cannot be projected to the entire
population.

For LINCS, auditors visited the resource center and community radio station in Malualkon
(Northern Bahr el Ghazal State) and interviewed representatives of the advisory board and four
CSOs in Malualkon and Aweil. We also interviewed a local county commissioner in Northern
Bahr el Ghazal. In Central Equatoria State, the auditors visited a facility in Yei that was similar
in function to a resource center although it was not included in the official list of deliverables.
Auditors also interviewed the associated advisory board and four CSOs in Yei. We visited the
Lainya resource center and interviewed the associated advisory board and three CSOs. Local
county commissioners in Yei and Lainya were interviewed as well. Finally, the audit team
visited the Juba civic engagement center and interviewed the advisory board and two CSOs.

For MC-BRIDGE, the audit team was permitted to travel to Malakal in Upper Nile State only.
While there, we interviewed nine Upper Nile government officials and observed a public


                                                                                                28
                                                                                      Appendix I


financial management training session. The audit team spoke with training participants as well
as with two officials from local planning units in Melut and Mabaan.

To verify reported results and confirm data quality for MC-BRIDGE, we reviewed supporting
documentation for selected indicators at Mercy Corps’ office in Juba. The auditor’s data quality
testing covered FY 2010, the last full year for which reported results were available, and
available results from the first three quarters of FY 2011. To establish the program’s overall
achievement for MC-BRIDGE, which had not been done prior to the audit, we compiled results
from Mercy Corps for FY 2009, 2010, and the first three quarters of 2011. Nearly all of the
activities had concluded by the fourth quarter of FY 2011, so fourth-quarter results would not
significantly affect the achievement. Testing on achievement of performance indicators covered
all performance data that were available and supported by source documentation from FY 2009
to 2011.

To establish criteria for the audit, we reviewed applicable laws, regulations, and USAID policies
and procedures pertaining to USAID/Sudan and USAID/South Sudan’s development strategy—
including certification of management controls—which the mission is required to perform to
comply with the Federal Managers’ Financial Integrity Act of 1982 to check whether the
assessment cited any relevant weaknesses.13 We also reviewed USAID’s ADS Chapters 200,
―Introduction to Programming Policy‖; 202, ―Achieving‖; 203, ―Assessing and Learning‖; 312,
―Eligibility of Commodities‖; and 320, ―Branding and Marking‖; Acquisition & Assistance Policy
Directive 04–14, ―Certification Regarding Terrorist Financing Implementing Executive Order
13224 (Revision 2)‖; and supplemental ADS guidance.

Given the nature of the audit objectives, no materiality threshold was established.




13
     Public Law 97–255, as codified in 31 U.S.C. 120105, 1113, and 3512.

                                                                                              29
                                                                                                                      Appendix II



               MANAGEMENT COMMENTS


               MEMORANDUM

               Date:         April 13, 2012

               To:           Christine M. Byrne, Regional Inspector General/Pretoria

               From:         Peter R. Natiello, Acting USAID/South Sudan Mission Director /s/

               Subject:      Management Comments, Audit of USAID/South Sudan’s Programs Implemented
                             by Mercy Corps (Report Number 4-668-12-00X-P)

               Reference:    Christine M. Byrne’s memorandum dated February 14, 2012
                             Draft Audit Report Number 4-668-12-00X-P, dated February 14, 2012


               In response to the referenced draft report, please find below management comments on the
               fourteen recommendations included therein. USAID/South Sudan would like to extend thanks to
               the audit team for the professionalism and thoroughness displayed in the execution of this audit,
               and appreciates the substance of these recommendations. We have already undertaken significant
               efforts, as USAID’s newest mission, to optimize business processes and procedures, reviewing
               extant systems, and building actionable strategies to enhance mission routines and match
               resources to programmatic and management needs.

               Recommendation No 1: In coordination with USAID/Sudan, develop and implement a
               plan to improve management of projects, programs, or activities that span both Sudan and
               South Sudan, with particular attention that involve multiple technical offices

               Management Comments: Since the independence of South Sudan on July 9th, 2011,
               USAID/South Sudan has endeavored to reduce its reliance on USAID/Sudan’s personnel and
               systems as they transition to two separate missions. This encompasses the division of all
               functions, including program oversight, budgeting, acquisition and assistance (A&A), and
               executive functions. Additionally, legal and A&A once provided out of Khartoum are now
               physically located in the USAID/South Sudan Mission. Because Sudan and South Sudan are now
               two separate countries, programmatic activities are also being divided to become two separate
               country programs.

Courier Address:                                Pouch Address:                   Tel: +1 202 216 6279 extension 216
U.S. Embassy                                    4420 Juba Place                  Website: www.usaid.gov
Juba, South Sudan                               Washington DC 20521


                                                                                                                              30
                                                                                          Appendix II



The division of the two Missions has been complex and necessitated a phased process which has
taken some time. Programmatically, only one activity, the South Sudan Transition and Conflict
Mitigation Program (SSTCM), retains an aspect of joint management. Currently, program
management units are managed separately, but the contract itself has not been formally
segregated. Although this contract is scheduled to expire by its terms in 2013, the Mission has
initiated contract action to separately manage and fund this program. Furthermore, due to
difficulties in joint management, such as those described in this report, USAID/Sudan and South
Sudan have initiated procurement of two new awards to take the place of the SSTCM.
Accordingly, two separate solicitations have been released and it is expected that new contracts
will be in place by the end of this fiscal year. In the future, it is not envisioned that joint north-
south programs will be undertaken.

Therefore, Mission requests concurrence that Management Decision has been reached.


Recommendation No 2: Develop and implement procedures to help ensure the timely
submission, review, and approval of recipients’ annual work plans.

Recommendation No 7: Develop and implement procedures for timely review and
approval of recipients’ submissions for contracting officer approval, waivers, and
environmental documentation.

Recommendation No 11: Develop and implement a plan for future agreements to require
USAID approval of employees who perform duties described in key personnel position
descriptions.

Management Comments to Recommendations Nos. 2, 7 and 11: Mission management
concurs with the recommendations. USAID/South Sudan has already undertaken significant
efforts to improve procedures for the review and approval of A&A requirements, including work
plans, waivers and environmental documentation. Adding additional certifications to existing
required documentation as part of the Mission Annual Portfolio Review process will also ensure
that these items are monitored. In the past six months, USAID/South Sudan has expanded its
staffing and now has both a Legal Advisor and a Supervisory Contracting/Agreement Officer
located in the Mission. Ad hoc A&A and legal support have also been provided by both
USAID/Washington and USAID/Kenya. The Mission will continue to receive support from
USAID/Washington and USAID/Kenya to help overcome the current space constraints that
continue to limit the number of staff in South Sudan. Additionally, the Mission has developed a
staffing plan to further increase the contracting staff. In conjunction with the increase in
contracting and legal staffing, the Mission devised a staffing plan to increase the number of staff
to manage programs and provide monitoring, training and oversight of AORs. The first five
NSDD-38s have been submitted and approved by the Ambassador for submission through the
formal NSDD-38 process. USAID/South Sudan will submit the remaining additional NSDD-38s
to the Ambassador in line with the revised staffing plan by January 31, 2013.

With respect to environmental concerns, USAID/South Sudan’s Mission Environmental Officer


                                                                                                    31
                                                                                     Appendix II


(MEO) is based in Washington and covers both Sudan and South Sudan. A Foreign Service
National (FSN) officer has attended formal environmental compliance training and is being
trained as the Mission’s assistant MEO with the objective of transferring day to day oversight
and compliance duties to him. In addition, a second FSN staff member attended environmental
compliance training this year in order to be prepared to serve as the Mission’s assistant MEO as
the current assistant will transition to serving as the full MEO. In order to further supplement
staff for environmental compliance and as part of broader project monitoring, USAID/South
Sudan will also acquire on-demand environmental compliance, management, and sound design
support through the Global Environmental Management Support (GEMS) mechanism, managed
by USAID/AFR/SD. In addition to training in-country staff and requesting support under GEMS,
both of which will help overcome the current space constraints that continue to limit the number
of staff in South Sudan, the Mission will continue to receive support from Washington and
request additional environmental support from the Regional Environmental Office based in
Nairobi, Kenya.

In addition to staffing, in the past month and at the Mission’s request, the MEO provided the
Mission with a comprehensive “Environmental Compliance Tracking Matrix” which delineates
South Sudan and Sudan activities and allows the Mission to more accurately gauge
environmental compliance needs and requirements. This matrix will help the new FSN MEO and
assistant MEO to accurately monitor environmental compliance concerns and respond to them in
a timely fashion. Additionally, the Mission has developed and disseminated a pre-obligation
check-list to technical offices which is required to be completed prior to further obligation of
funding of contract and grant instruments, and which requires clearance by the Technical,
Program and Contracts offices. Compliance with environmental documentation and waivers has
been made a component of this checklist. Additionally, the Mission will include AOR
affirmation of current work plans in the documentation required for Annual Portfolio Reviews
commencing with the next mission review to be held prior to December 31, 2012. With respect
to compliance with key personnel approvals, for all future awards the Mission will require post-
award conferences to include attendance of the Agreement Officer, AOR and recipients. As part
of the post-award conference, roles and responsibilities of key personnel will be reviewed with
recipients and AORs, as well as possible corrective actions for deviations from approved key
personnel designations or functions, including potential disallowance of costs.

Therefore, Mission requests concurrence that Management Decision has been reached.


Recommendation No 3: Determine the allowability of $1,125,000 in ineligible questioned
costs spent on substandard construction of the Mabaan Country vocational training center
without prior agreement officer approval and recover from Mercy Corps any amounts
determined to be unallowable.

Recommendation No 4: Determine the allowability of $112,404 in ineligible questioned
costs spent on restricted good without prior USAID approval and recover from Mercy
Corps any amounts determined to be unallowable.

Recommendation No 8: Determine the allowability of $201,604 in unsupported questioned


                                                                                             32
                                                                                      Appendix II


costs (pertaining to the employment costs of a former Mercy Corps country director) and
recover from Mercy Corps any amount determined to be unallowable.

Recommendation No 9: Determine the allowability of $137,411 in ineligible questioned
costs arising from inconsistent treatment of capital expenditures in the indirect cost rate
calculations and recover from Mercy Corps any amount determined to be unallowable.

Recommendation No 10: Take steps to require that Mercy Corps compensates USAID for
any office compounds funded by the LINCS program that it intends to retain title to, in
accordance with 22 Code of Federal Regulations (CFR) 226.32.

Management Comments to Recommendations Nos. 3, 4, 8, 9 and 10: Mission management
concurs with the recommendations. The Agreement Officer will review and make a
determination of associated costs under recommendation number 10 in conjunction with and
within the time limitations for determining the allowability of costs for recommendations
numbers 3, 4, 8 and 9.


Recommendation No 5: Develop and implement a plan to ensure that all water points
constructed or refurbished for human consumption under the Mercy Corps BRIDGE
program and resolve any issues identified.

Management Comments: Mission management concurs with the recommendation.
USAID/South Sudan will contact Mercy Corps to request that Mercy Corps collect samples from
the 16 boreholes and submit the samples for a full analysis, in line with the guidelines of the
World Health Organization and host country water quality standards and monitoring
requirements. For those boreholes with test results that meet the testing requirements and are fit
for human consumption, no further action is required. For those sites that do not meet testing
requirements and cannot feasibly be made potable, the borehole will be capped. Due to the
difficulty of travel to these locations because of the current insecurity and upcoming rainy
season, USAID will target completion of these actions by January 31, 2013. USAID/South
Sudan will also implement existing USAID procedures to ensure IEEs and ERF/ERRs developed
in the future include the Water Quality Assurance Plans (WQAP) template when indicated by
planned activities.

Therefore, Mission requests concurrence that Management Decision has been reached.


Recommendation No 6: Develop and implement procedures to ensure that water points
constructed or refurbished in South Sudan with USAID funds are tested as required by
Agency regulations.

Management Comments: Mission management concurs with the recommendation.
USAID/South Sudan will implement existing USAID procedures to ensure that all USAID/South
Sudan water points that are constructed or refurbished in the future comply with existing
regulations, as referenced at: Environmental Guidelines for Small Scale Activities in Africa


                                                                                               33
                                                                                       Appendix II


(EGSSAA), Ch 16, Water Supply and Sanitation http://www.encapafrica.org/sectors/watsan.htm.
In line with USG WASH framework and GOSS water policy, USAID/South Sudan will comply
with all water quality compliance guidelines to be followed in all USAID funded Water
Sanitation and Hygiene Projects. These guidelines will be shared with AORs, implementing
partners, GOSS’ Ministry of Water Resources and Irrigation (MWRI) and other technical experts
within USAID by January 31, 2013.

As was recognized within the draft audit report, any WASH activities should conform to existing
USAID regulations that ensure that project implementation does not proceed until USAID
approves the recipient’s environmental review forms. Further, as per 22 CFR 216, all projects
involving potable water supplies, including construction of new sources and rehabilitation of old
ones, should include testing for arsenic in addition to the usual testing for coliform bacteria and
nitrates. While these actions are already included in USAID regulations, they will be emphasized
to implementing partners in South Sudan, and monitored through regular site visits.


Recommendation No 12: Designate a branding and marking subject matter expert; and
develop and implement a plan to educate implementing partners on devising effective
branding strategies.

Recommendation No 13: Develop and implement procedures for monitoring the
implementation and effectiveness of approved branding strategies and marking plans
during site visits, including alternate monitoring procedures if security and/or logistical
constraints preclude actual visits.

Management Comments to recommendations 12 and 13: Mission management concurs with
the recommendation. USAID/South Sudan, as with all other USAID Missions, is expected to
have an experienced Development Outreach and Communications Specialist (DOC) to handle
branding and marking matters, including education to implementing partners, approval of
branding and marking plans, and monitoring of branding and marking implementation. Due to
limited space and a lack of NSDD-38 approvals for staffing, there have not been dedicated
personnel to handle this function in the Mission. In the interim, USAID/South Sudan hired a
Communications Specialist through the current Mission Support Contract and has received
periodic support from USAID/Washington.

Moving forward, USAID/South Sudan plans to hire two individuals to undertake this function, a
DOC through a Personal Services Contract (US/PSC), and a new Foreign Service National
(FSN) DOC. The NSDD-38 for the USPSC/DOC has been submitted to and approved by the
Ambassador, and will be submitted by June 1, 2012 to Washington, D. C. for further approval.
The applications for the FSN/DOC have been solicited and are undergoing review for hiring by
January 31, 2013, in order to accommodate required employment access clearances.
Nevertheless, the FSN DOC will need on-the-job and other training before he/she becomes
functional to fully perform his/her assigned duties. In the interim, USAID/South Sudan will
request additional support from USAID/Washington and USAID/Kenya, including sending
someone in to train staff and partners on branding and marking by January 31, 2013, in order to
fill this critical gap. In addition, USAID/South Sudan will develop a procedure for site visits to


                                                                                                34
                                                                                       Appendix II


include spot checking compliance with branding and marking procedures by January 31, 2013.


Recommendation No 14: Develop a mission order on training traditional birth attendants
and disseminate the policy to staff and implementing partners, as appropriate.

Management Comments: Mission management concurs with the recommendation. The
Mission will develop a mission order on training traditional birth attendants (TBAs) by June 1,
2012. This mission order will be disseminated to implementing partners electronically after it is
approved by the South Sudan mission. In addition, the contents of the mission order will be
shared in regular management meetings between USAID and implementing partners who
support maternal and child health activities.

While in the past the Ministry of Health has supported the training of TBAs, the current policy of
the Ministry of Health does not subscribe to utilizing TBAs to support deliveries, regardless of
their level of training. USAID’s programs seek to comply with the MOH policy. In response to a
recommendation made during an audit of USAID/Sudan’s Maternal and Child Health Activities,
conducted in July 2011 (Report Number 4-650-11-010-P, July 28, 2011), USAID/South Sudan
eliminated language in its task order with Management Sciences for Health so that the task order
no longer had the phrase “assess the [trained traditional birth attendant] population and select
among them a cadre that can be upgraded.” A USAID/South Sudan Mission Order will
emphasize the need to follow MOH policy, and to ensure that programming reflects best
practices in skilled attendants at birth.

However, as South Sudan has many more TBAs than midwives or other skilled health
professionals, USAID will continue training this “cadre” of health workers to do community
outreach to mobilize women to visit facilities for antenatal care (ANC), safe delivery and
reproductive health services. USAID believes this proactive health promotion contributes to the
rising number of ANC and family planning (FP) visits.

Please acknowledge Mission’s Management Decision.




                                                                                                35
                                                                                        Appendix III


                                    Consortium Partners
                                 Amount
                                Expended
                                                 Geographic        Sectoral
    Partner      Award Type     as of Sept.                                           Notes
                                                  Coverage         Expertise
                                 30, 2011*
                                     ($)
                                                                         †
                  Cooperative                                   WASH         Expelled in March
                                            Upper Nile
 Mercy Corps       agreement    28,066,000                      Education    2009; re-registered
                                            Abyei
                  with USAID                                    Livelihoods  as MC Scotland.
                 * Expenditures per Mercy Corps’ Records as of September 30, 2011
                                                                             Assumed
                                                                             responsibility for
                                                                             MC-BRIDGE
                                           Blue Nile
 MC Scotland      Subcontract    3,695,054                      Livelihoods  activities in Southern
                                           Southern Kordofan
                                                                             Kordofan and Blue
                                                                             Nile States in June
                                                                             2009.
                                           Abyei                Health       Initially, GOAL North
 GOAL North         Subgrant       636,012                             †
                                           Blue Nile            WASH         covered Abyei and
                                                                             GOAL South
                                                                             covered Blue Nile.
                                           Abyei                Health       They swapped
 GOAL South         Subgrant     1,625,390                             †
                                           Blue Nile            WASH         geographic
                                                                             coverage on April 1,
                                                                             2011.
                                                                             Save the Children
                                                                             Federation was
                                                                Health
 Save the                                  Abyei                       †     expelled from Sudan
                                                                WASH
 Children           Subgrant     2,094,000 Blue Nile                         in March 2009 and
                                                                Education
 Sweden                                    Southern Kordofan                 reentered as Save
                                                                Livelihoods
                                                                             the Children
                                                                             Sweden.
 World Vision                                                            †
                  Subgrant       1,874,866    Upper Nile          WASH
 Inc.
 International
                                                                  Health
 Medical          Subgrant       1,648,294    Upper Nile                 †
                                                                  WASH
 Corps
 Norwegian
                  Subgrant       2,211,825    Upper Nile          Livelihoods
 People’s Aid
 Stromme                                                                        Left the consortium
                  Subgrant        155,686     Upper Nile          Education
 Foundation                                                                     in March 2010.
                                              Abyei                             Late to join the
 Tetra Tech                                   Blue Nile                         consortium as the
                Subcontract       1,399,555                       Governance
 ARD                                          Southern Kordofan                 technical expert on
                                              Upper Nile                        governance.
†
  WASH stands for water, sanitation, and hygiene.




                                                                                                      36
                                                                                   Appendix IV



      Lainya Civil Society Resource Center Computer Activity Log




As shown on this Internet browser screenshot from the Lainya resource center computer lab, the
activity observed during site visits rarely related to strengthening civil society as originally
intended by the LINCS program. (Taken by RIG/Pretoria, September 2011)




                                                                                             37
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
